Audit Report




OIG-06-043

REVENUE PROTECTION: TTB’s Revenue Protection Audits
Target the Largest Taxpayers

September 26, 2006




Office of
Inspector General
Department of the Treasury
This report has been reviewed for public dissemination by the Office of Counsel
to the Inspector General. Information requiring protection from public
dissemination has been redacted from this report in accordance with the
Freedom of Information Act, 5 U.S.C. §552.
Contents


Audit Report....................................................................................................1

    Results in Brief ................................................................................................. 2

    Background ...................................................................................................4

    Findings ......................................................................................................6

        TAD Targeted Large Taxpayers for Audit in Fiscal Year 2005..........................6

        The Risk Model Contained Errors Which Impacted Overall Risk Scores............12

        FET System Controls Need Strengthening at the Taxpayer Level ...................18

    Conclusions .................................................................................................21

    Recommendations ........................................................................................21

Appendices

    Appendix     1:       Objectives, Scope, and Methodology .......................................24
    Appendix     2:       Risk Model Scoring Guidelines for Large Taxpayers....................26
    Appendix     3:       Management Response ..........................................................27
    Appendix     4:       Major Contributors to This Report ............................................34
    Appendix     5:       Report Distribution.................................................................35

Abbreviations

    EFT                   Electronic Fund Transfer
    FET                   Federal Excise Tax
    IRC                   Internal Revenue Code
    NRC                   National Revenue Center
    RMS                   Risk Management Staff
    TAD                   Tax Audit Division
    TTB                   Alcohol and Tobacco Tax and Trade Bureau




                          REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest                 Page i
                          Taxpayers (OIG-06-043)
          This page intentionally left blank.




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page ii
Taxpayers (OIG-06-043)
                                                                                 Audit
OIG
The Department of the Treasury
                                                                                 Report
Office of Inspector General




                  September 26, 2006

                  John J. Manfreda
                  Administrator
                  The Alcohol and Tobacco Tax and Trade Bureau


                  The Alcohol and Tobacco Tax and Trade Bureau (TTB) is
                  responsible for enforcing and administering laws covering the
                  production, use, and distribution of alcohol and tobacco products.
                  TTB also collects excise taxes on alcohol, tobacco, firearms, and
                  ammunition. TTB collects about $15 billion in excise taxes
                  annually. TTB’s Tax Audit Division (TAD) conducts taxpayer audits
                  to ensure that taxpayers pay the correct amount of taxes and to
                  promote voluntary compliance with excise tax requirements.

                  TAD has a staff of about 80 auditors to conduct audits of the
                  approximately 7,300 taxpayers subject to excise taxes on their
                  sales of alcohol, tobacco, firearms, and ammunition. Therefore, to
                  most effectively assess taxpayer compliance with excise tax
                  requirements, TAD must be selective about which taxpayers to
                  audit. The objectives of our audit were to determine how TAD
                  targets industry members for audit and to assess the results that
                  TAD achieved. To accomplish our objectives, we reviewed TAD
                  data on audits conducted and the TTB Risk Management Staff’s
                  (RMS) risk assessment model (risk model) – including the data used
                  – for fiscal year 2005, which is designed to assess the risk that an
                  entity will not pay its taxes in full. We also reviewed TTB’s
                  strategic plan and annual performance and accountability reports.
                  We conducted our fieldwork from July 2005 through July 2006.
                  Appendix 1 contains a more detailed description of our objectives,
                  scope, and methodology.




                  REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 1
                  Taxpayers (OIG-06-043)
Results in Brief
               TTB’s strategic plan for fiscal years 2003 through 2008 calls for
               TAD to move from random selection of audit targets to risk-based
               selection. To achieve this goal, TAD and the Risk Management
               Staff (RMS) developed a risk model which includes a variety of risk
               factors [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)].
               TAD focused its audits on the largest taxpayers [REDACTED - FOIA
               EXEMPTION 2, 5 U.S.C. §552 (b) (2)] in a cycle that would
               complete audits of all large taxpayers in 5 years. These taxpayers
               accounted for approximately 98 percent of all excise taxes
               collected. TTB’s Assistant Administrator for Field Operations
               decided on this approach because it supports TTB’s strategic
               objective of collecting “all revenue that is rightfully due” and TAD’s
               strategic objective of validating 90 percent of excise tax revenues
               paid by TTB-regulated taxpayers. Using this strategy, TAD reported
               about $17.1 million in additional taxes due or collections from 110
               completed audits in fiscal year 2005.

               We reviewed the fiscal year 2005 risk model and found that it
               contained errors which resulted in the assignment of incorrect risk
               rating scores to some large taxpayers. For example, the risk scores
               used to select large taxpayers identified incorrect revenue scores
               for 6 taxpayers who were erroneously assigned a score of zero
               indicating audits had been completed in fiscal year 2004. However,
               5 of these audits were not started in fiscal years 2004 or 2005.
               One was started and completed in fiscal year 2005.

               We could not easily reconcile the National Revenue Center (NRC)
               source data with the data found in the risk model. To provide the
               most current tax data and to allow easier reconciliation, NRC has
               taken steps to ensure that future reports will allow RMS to
               reconcile the risk model data to the NRC database, yielding
               consistent results for the same time period, regardless of the date
               the report is run. This procedure should also leave an audit trail of
               taxpayer transactions.




               REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 2
               Taxpayers (OIG-06-043)
While attempting to verify risk model data at NRC, we also found
that individual taxpayer account balances may be inaccurate
because of a Federal Excise Tax (FET) system control weakness in
the processing of electronic fund transfer (EFT) payments to
individual taxpayer accounts at NRC. The weakness allows EFT
payments to be transferred among taxpayer accounts without
adequate explanation, potentially affecting the accuracy of NRC
data on taxpayer account balances. NRC is currently working to
resolve this problem.

We are making recommendations to TTB that address use of the
risk model to select taxpayers for audit, the accuracy of data in the
risk model, and controls over EFT payments.

TTB Response and OIG Comments

In a written response, the TTB Administrator stated that he agreed
with our five recommendations and had implemented four. Action
will be taken on the final recommendation to complete an FET
system enhancement at NRC within the next 90 days. See
appendix 3 for the entire reply.

The Administrator did express some concerns about the report
content and audit approach. First, in response to the third finding,
he noted that NRC manually documented and maintained all
adjusting records and approval records, but the OIG did not review
the pertinent documentation. As noted in the report, we asked for
and received assistance in trying to reconcile taxpayer account
data, including adjustments, to the RMS risk model. A NRC tax
coordinator could not readily reconcile the taxpayer accounts in
question (described on report pages 18 and 19), but he did provide
us with documents detailing adjustments which we reviewed and
cited in the report. He did not provide the approval records.

The Administrator next noted that TAD never intended to use the
results of the risk model as the sole criteria for allocating audit
resources. The risk model was used as a tool for audit selections
rather than sole selection criteria. We agree and detail the other
factors TAD considered on page 7 of the report.



REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 3
Taxpayers (OIG-06-043)
                        The Administrator stated that TAD focused a majority of its limited
                        audit resources on the largest taxpayers because the $14.7 billion
                        in excise tax revenue represented the greatest risk. Plus, many of
                        the alcohol and tobacco taxpayers had not been audited in 5 – 10
                        years. However, the final decision as to whom to select for audit
                        rested with the TAD Director. The report also concludes that
                        resource allocation was focused on large taxpayers, with the TAD
                        Director having the discretion to include the numerous factors cited
                        on page 7, as part of his basis for audit selection.

                        The Administrator acknowledged that some errors were made in
                        the risk model calculations and an audit trail needs to be
                        maintained for FET data used in the model. TTB has already taken
                        corrective actions to remedy the items noted in the report.

Background
                        TTB Legal Authority

                        TTB administers and enforces federal laws and implements
                        regulations related to the production and taxation of alcohol and
                        tobacco products and to the collection of federal excise taxes on
                        firearms and ammunition. After TTB was established in fiscal year
                        2003 by the Homeland Security Act of 2002,1 it created the TAD
                        and RMS operations.

                        TTB derives it authority to regulate the alcohol, tobacco and
                        firearms industries from the Internal Revenue Code (IRC) of 19862
                        and the Federal Alcohol Administration Act.3 IRC imposes federal
                        excise taxes on distilled spirits, beer, wine, tobacco, firearms, and
                        ammunition. The Federal Alcohol Administration Act regulates
                        trade practices, labeling, and advertising in the distilled spirits,
                        beer, and wine industries.




1
 One provision of this act divided the Bureau of Alcohol, Tobacco and Firearms, a part of Treasury, into two
new agencies: the Bureau of Alcohol, Tobacco, Firearms, and Explosives, which was established in the
Department of Justice, and TTB, which remained in Treasury. The split occurred on January 24, 2003.
2
    26 U.S.C.
3
    27 U.S.C. ch 8.

                        REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest        Page 4
                        Taxpayers (OIG-06-043)
                       TAD Audits

                       TAD is the TTB organizational component responsible for auditing
                       taxpayers for compliance with the IRC and other applicable laws
                       and regulations. After its establishment in January 2003, TTB
                       created TAD to verify proper payment of alcohol, tobacco,
                       firearms, and ammunition excise taxes and to ensure compliance
                       with laws and regulations by taxpayers in a manner that protects
                       the revenue, protects the consumer, and promotes voluntary
                       compliance. TAD uses information received from NRC and RMS to
                       assist in selecting taxpayers for audit.

                       TAD plans, coordinates, and conducts audits of taxpayers and
                       assists with other initiatives in accordance with TTB's Strategic
                       Plan. IRC provides TAD the authority to enter manufacturer
                       premises, inspect books and records, and summon those
                       responsible for the records. Taxpayer records may be inspected
                       annually for a period dating back 3 years from the date of the
                       return.

                       Risk Model

                       Data compiled by NRC are the basis for the RMS risk model, which
                       was first developed for use during fiscal year 2004. TTB solicited
                       the expertise of senior staff to decide which risk factors should be
                       included within the initial model. For fiscal year 2005, the risk
                       model scoring guidelines for large taxpayers is displayed in
                       appendix 2. In its preparation of the annual risk model, RMS uses
                       taxpayer revenues and other relevant taxpayer information provided
                       by NRC.

                       NRC receives and processes tax returns, payments, claims and
                       operational documents submitted by the regulated industries.4 NRC
                       also works to collect delinquent taxes identified by field audits as
                       well as liabilities that have been assessed and remain unpaid. This



4
  Taxpayers who are liable during any given year for $5 million or more in excise taxes imposed on
distilled spirits, wines, beer or on tobacco products and cigarette papers and tubes are required to pay
such taxes during the following year by EFT.

                       REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest       Page 5
                       Taxpayers (OIG-06-043)
                        includes handling case resolutions through offers-in-compromise5,
                        enforced collections and demands on surety or collateral bonds. In
                        addition, NRC tracks a taxpayer’s excise tax liability by a unique
                        registry number which is tied to an individual permit (license to
                        operate) number. A taxpayer with more then a single registry
                        number is referred to as a “multi-site” taxpayer. Registry numbers
                        allow NRC to track a taxpayer’s potential liability.

                        RMS develops risk factors to determine the relative risk that a
                        given taxpayer may not be willing or able to voluntarily comply and
                        pay all taxes due. Once RMS identifies the applicable risk factors,
                        which include excise tax revenues, unpaid liabilities, financial
                        difficulties, and operation of multiple sites, it calculates a risk score
                        and a risk rating for each taxpayer. The overall risk score is
                        comprised of a base score (taxpayer revenue) plus a risk indicator
                        score (see appendix 2). The risk model consists of a listing of
                        taxpayers sorted by their overall risk scores and risk ratings.

Findings
Finding 1               TAD Targeted Large Taxpayers for Audit in Fiscal Year
                        2005

                        According to TTB’s strategic plan for fiscal years 2003 through
                        2008, TAD was to move from random selection of audit targets to
                        risk-based selection. In fiscal year 2005, TTB’s Assistant
                        Administrator for Field Operations decided to concentrate the
                        majority of TAD’s resources on the [REDACTED - FOIA
                        EXEMPTION 2, 5 U.S.C. §552 (b) (2)] largest taxpayers
                        [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)] who pay
                        approximately 98 percent of all taxes collected by TTB. At the time
                        of our audit, TAD intended to continue auditing the largest
                        taxpayers until all of them have been audited over a 5-year period.


5
  Tax Related Offer in Compromise: TTB will compromise a tax liability when there is doubt as to liability
(i.e., there is doubt as to whether the taxpayer actually owes the amounts TTB has determined are due)
or doubt as to collectibility (i.e., there is doubt that the taxpayer will be able to pay the full amount due
immediately or in the future). In some cases, both doubt as to liability and doubt as to collectibilty may
apply.


                        REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest        Page 6
                        Taxpayers (OIG-06-043)
Decision to Base Audit Selection on Taxpayer Size

TAD’s Fiscal Year 2005 Audit Plan supports both TTB’s strategic
objective to "collect all revenue that is rightfully due" and TAD’s
strategic objective of validating 90 percent of excise tax revenues
paid by TTB-regulated taxpayers. Rather than rely solely on risk
model rankings, which take into account both taxpayer size and
specific risk factors (late or delinquent tax payments; late-filed tax
returns; multi-site operations; history of noncompliance; and other
risk factors, such as a precipitous decline in tax payments) to
select taxpayers for audit, the TTB Assistant Administrator for Field
Operations decided to concentrate the majority of TAD’s resources
on TTB’s largest taxpayers.

The TAD Director supported this change in strategy, citing
operational considerations such as staffing levels in TAD district
offices, staff availability and training needs, and time and travel
constraints. Staffing considerations were especially important
because most of the individuals who had been hired by TAD, which
was created in 2003, were new to TTB and to the industries
regulated and taxed by the bureau. However, the TAD Director
indicated that the average risk rankings of the completed audits for
fiscal year 2005 would substantiate the fact that the RMS risk
model was considered during audit planning.

At the time of our audit, TAD intended to continue auditing the
largest taxpayers until they had all been audited over a 5-year
period. Although TAD identified millions of dollars in additional
taxes or collections using this strategy, we believe that this
approach could prevent TAD from selecting certain problem
taxpayers for audit. In April 2006, TAD published its Strategic Plan
– Proposal for Fiscal Years 2007 – 2009. The plan proposes that
TAD continue to use a risk based approach to audit a combination
of large, medium, and small excise taxpayers. It also states that
TAD would like to focus its resources on areas where there is a
significant “risk to revenue.”




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 7
Taxpayers (OIG-06-043)
                      Effect of TAD’s Decision Not to Rely Solely on Using the Risk
                      Model to Select Taxpayers for Audit

                      TAD provided documentation showing that it completed 110 audits
                      in fiscal year 2005 and that these audits identified $17.1 million in
                      additional taxes due or collected ($11.3 million identified as
                      additional taxes due and $5.8 million in actual collections). We
                      found that TAD’s use of taxpayer size in conjunction with the risk
                      model and resource considerations, rather than the risk model
                      alone, impacted which taxpayers were audited in fiscal year 2005.
                      According to the TTB “Risk Assessment – Targeting, Fiscal Year
                      2005” procedures document, four factors should be considered in
                      selecting taxpayers for audit in fiscal year 2005.The four factors
                      are as follows: unpaid liabilities, financial difficulties, multi-site
                      operations, and risk assessment scores. The universe of taxpayers
                      to which these factors were to be applied consisted of taxpayers
                      with annual tax payments of over [REDACTED - FOIA EXEMPTION
                      2, 5 U.S.C. §552 (b) (2)].

                      Unpaid liabilities [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552
                      (b) (2)] The risk model identified 8 taxpayers in this category in
                      fiscal year 2005. We found that TAD had audited 3 and was able
                      to reasonably account for the other 5 taxpayers. One was in the
                      process of being audited; 1 was being investigated by TTB’s Trade
                      Investigations Division; 1 had its audit postponed pending
                      implementation of a TTB circular containing guidance on the
                      establishment and operation of alternating brewery proprietorships6
                      and 2 had filed for bankruptcy (and 1 of these 2 was no longer in
                      business).

                      Financial difficulties According to TTB’s risk assessment targeting
                      procedures for fiscal year 2005, taxpayers with financial difficulties
                      are those that have filed for bankruptcy since the last audit, had a
                      prior-year audit that recommended a follow-up audit, or for which
                      there is other substantial evidence of serious financial difficulties,
                      such as trade reports of an impending bankruptcy filing or a

6
 An “alternating proprietorship” is an arrangement in which two or more people take turns using the
physical premises of a brewery. Generally, the proprietor of an existing brewery agrees to rent space
and equipment to a “tenant brewer.” The relevant circular, TTB Industry Circular Number 2005-2,
“Alternating Proprietors at Brewery Premises,” was issued on August 12, 2005, and was to take effect
on September 1, 2006.

                      REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 8
                      Taxpayers (OIG-06-043)
                       precipitous decline in tax payments.7 Points assigned for various
                       types of financial difficulties are calculated separately on the risk
                       model. [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]

                       The risk model identifies taxpayers with financial difficulties by
                       [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)] We
                       reviewed the fiscal year 2005 model in terms of dollar increases
                       and/or decreases and identified 15 large taxpayers with a decline in
                       tax payments from the prior fiscal year that exceeded $10 million.8
                       We selected $10 million as a reasonable gauge of a significant
                       decline in taxes paid [REDACTED - FOIA EXEMPTION 2, 5 U.S.C.
                       §552 (b) (2)].

                       Eight of the 15 were audited in either fiscal year 2004 or fiscal
                       year 2005, though 7 were not. We determined that the declines in
                       these 7 taxpayers’ tax payments ranged from about $10 million to
                       $103 million, and totaled about $194 million. After taking these
                       declines into account and recalculating the risk scores of these 7
                       taxpayers, we found that in 6 of the 7 cases9 [REDACTED - FOIA
                       EXEMPTION 2, 5 U.S.C. §552 (b) (2)]. According to RMS, the
                       lower the rating [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552
                       (b) (2)], the higher the audit priority should be; thus, these
                       taxpayers should have been considered for audit.

                       Multi-site operations TTB’s risk assessment targeting procedures
                       for fiscal year 2005 call for [REDACTED - FOIA EXEMPTION 2, 5
                       U.S.C. §552 (b) (2)]. National audits are conducted for the sake of
                       efficiency – for both the government and the taxpayer. Large multi-
                       site operations –taxpayers that operate at multiple sites—undergo
                       “national audits,” which means that all sites are audited
                       simultaneously. According to the Director of TAD, simultaneous
                       audits are more efficient than sequential audits for multiple sites
                       with the same corporate control structure because certain steps
                       can be consolidated rather than repeated at each site. For example,

7
  The Chief of RMS said that a precipitous decline in tax payments is defined by market trends and is
determined year-by-year for each industry.
8
  The decline in tax payments component of the fiscal year 2005 risk model was derived by comparing
an entity’s fiscal year 2003 and fiscal year 2002 tax payments —the 2 most recent years for which
complete tax data were available.
9
  The other firm was purchased. The risk model contained no prior history for this registry number
corresponding to the EIN of its current owner. As a result, no comparison could be definitely calculated.

                       REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest      Page 9
                       Taxpayers (OIG-06-043)
national audits allow TAD to avoid reviewing the same corporate
controls at each location and therefore require fewer resources
than it would take to conduct separate audits. During fiscal year
2005, TAD reported performing a total of 9 multi-site audits
[REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]

Overall risk assessment TTB’s risk assessment targeting procedures
for fiscal year 2005 suggests that the remaining large taxpayers
selected for audit be based on the scores from the overall risk
assessment. The overall risk assessment will be comprised
[REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)] From a
review of the risk ratings for audits completed in fiscal years 2004
and 2005, we found that TAD, on average, selected taxpayers
with lower risk ratings – and therefore with higher audit priority –
in fiscal year 2005 than in fiscal year 2004. Taxpayers audited by
TAD in fiscal year 2005 had an average risk rating of [REDACTED -
FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)] TAD should continue
to rely on the risk based approach when scheduling audits.

Results of TAD’s Fiscal Year 2005 Audits

With its strategy of focusing on large taxpayers – those with an
annual tax liability of [REDACTED - FOIA EXEMPTION 2, 5 U.S.C.
§552 (b) (2)] or more – TAD’s fiscal year 2005 audits yielded
significant financial results. During the year, TAD completed 110
audits and reported identifying about $17.1 million in additional
taxes due or collected. By comparison, TAD completed 55 audits
and identified about $9.56 million in additional taxes due or
collected in fiscal year 2004. However, TAD was more fully staffed
in 2005 than in 2004.

The following table summarizes the results of TAD’s audit
programs in fiscal years 2004 and 2005.




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 10
Taxpayers (OIG-06-043)
Table 1: Summary of TAD Audit Results, Fiscal Years 2004 and 2005
 Program results                         Fiscal year 2004       Fiscal year 2005
 Audits completed                                          55                110
 Taxes validated as correcta                  $16.20 billion       $24.30 billion
 Additional tax collections                      $.86 million       $5.80 million
 Additional tax collections due                $8.70 million       $11.30 million
 Total tax collections and tax
 collections due                               $9.56 million      $17.10 million
 Audits in progress at end of year                        51                  36
Source: Treasury, Performance and Accountability report for fiscal year 2004 and TAD for
fiscal year 2005.
a
 Audits covered up to 3 years of tax payments.


Continued use of the strategy of auditing large taxpayers on a
5-year cycle, however, could prevent smaller taxpayers with unpaid
liabilities, financial difficulties, or other problems considered in risk
model rankings from being selected for audit. Use of the strategy
could also delay audits of large taxpayers with potential problems if
they are audited only according to the 5-year cycle, without regard
to problems that could be identified by the risk model. As a means
to prevent the exclusion of problematic taxpayers, TAD developed
its Strategic Plan – Proposal for Fiscal Years 2007 – 2009. The
plan proposes that TAD continue to use a risk based approach to
audit a combination of large, medium, and small excise taxpayers.
It also states that TAD would like to focus its resources on areas
where there is a significant “risk to revenue.”

Management Response

The Administrator stated in his response that the draft report
implied that the Bureau did not implement a risk based approach
but instead decided to audit only the taxpayers [REDACTED - FOIA
EXEMPTION 2, 5 U.S.C. §552 (b) (2)], and this was clearly not the
case. The draft also implied that TAD should have relied solely on
the risk model, without regard to factors such as staffing and
training.

OIG Comment

The report states the rationale for the audit strategy implemented
by TTB and TAD and cites the other factors (such as staffing,
travel and training) impacting audit selection. It does not suggest

REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest          Page 11
Taxpayers (OIG-06-043)
            that TAD only use the model. However, the report expressed
            concern that auditing large taxpayers over a 5-year cycle could
            prevent the selection of smaller, problematic taxpayers. TAD
            addressed this issue in its 2007-2009 Strategic Plan by proposing
            to continue to use a risk based approach to audit a combination of
            large, medium and small taxpayers, as well as manufacturers of
            non-beverage alcohol product claimants, who do not have to pay
            excise tax.

Finding 2   The Risk Model Contained Errors Which Impacted Overall
            Risk Scores

            We reviewed the risk model for fiscal year 2005 and found that
            revenue data in the model could not be readily reconciled with
            source data used to develop the model. We also found that the
            model contained errors, resulting in the calculation of incorrect
            overall risk scores and assignment of incorrect risk ratings to
            certain taxpayers. In addition, the risk rating scores were not
            always calculated in accordance with the guidelines outlined in
            "Risk Assessment Targeting Fiscal Year 2005”. We further found
            that individual taxpayer notations – the detailed notes within the
            model that identify the specific instances when or the reasons why
            points were assigned to the taxpayer – were often inaccurate or
            missing.

            In addition, although NRC, the source of the RMS risk model
            revenue data, updates revenue data in its own database to include
            any subsequent adjustments to prior tax periods, the data it
            provided to RMS were fixed as of a particular date. This disparity
            severely limited our ability to confirm critical source data, such as
            taxpayer revenue data in the risk model.

            The Chief of RMS acknowledged that some taxpayer ratings may
            have been calculated incorrectly, but maintained that the scoring
            errors had no impact on the taxpayers selected for audit. Since
            TAD applies numerous factors (such as availability of staff and
            travel funds) outside of the risk model, we could neither support
            nor refute that claim. The Director of TAD and the Chief of RMS
            reiterated that TAD was a newly created group and agreed that the
            initial risk models needed improvement. They indicated that as the

            REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 12
            Taxpayers (OIG-06-043)
program evolves and insight is gained from completed audits,
modifications and improvements will be made.

Revenue Data Could Not Be Easily Reconciled

The tax revenue data in NRC’s Federal Excise Tax (FET) database
could not be reconciled easily with the data that RMS used to
develop the risk model. When NRC forwards taxpayer revenue
collection figures to RMS for use in the risk model, RMS uses the
data as of the date they are forwarded. NRC does not subsequently
forward modified or updated data that reflects any additional
monies collected or credits applied.

Using a limited, random sample of taxpayers listed in the risk
model, we compared the revenue figures in the model against the
figures for the same taxpayers in NRC’s FET database. Even using
the same cut-off dates, we were unable to reconcile the revenue
data in the FET database with the revenue data in the RMS risk
model for the taxpayers in our sample. The Deputy Director of Tax
Services at NRC explained that within the FET database, when
monies are collected from a taxpayer or credits need to be entered,
the posting can be made to a prior tax period and the data can
change at any point in time. One purpose of postings to prior
periods is to match monies owed to monies received.

To allow easier reconciliation, NRC has agreed that future
information sent to RMS will include the selection criteria used to
generate the report and the NRC query used. This information will
allow RMS and NRC to run future reports with consistent results
for the same time period, regardless of the date the report is run.
This procedure should also leave an audit trail of taxpayer
transactions.

Risk Model Rating Factors Were Often Incorrectly Assigned

We tested the risk model on its own merits, as if the source data
were acceptable. While reviewing the largest taxpayers in the fiscal
year 2005 risk model, we found problems with both the
assignment of the points and the methodology used to determine
the ratings.


REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 13
Taxpayers (OIG-06-043)
                       Revenue score Taxpayers’ revenue scores are based on their prior
                       level of tax payments and the amount of time since they were last
                       audited.10 [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b)
                       (2)]




                       Our review of the risk scores used to select large taxpayers for
                       audit in fiscal year 2005 identified incorrect revenue scores for 6
                       taxpayers for which audits had been planned but not performed in
                       fiscal year 2004. However, 5 of these audits were not started in
                       fiscal years 2004 or 2005, nor were they even scheduled for
                       audit.11 One was started and completed in fiscal year 2005. RMS
                       assumed that the audits had taken place and therefore used a
                       multiplier of zero with the tax liability amount, resulting in a
                       revenue score of zero for the 6 taxpayers.

                       RMS agreed that assigning a revenue multiplier of [REDACTED -
                       FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)] to taxpayers with
                       planned audits may have distorted the risk scores and resulting
                       ratings of some large taxpayers. The Chief of RMS stated that in
                       the future, multipliers used to calculate revenue scores – including
                       those for any


10
   Except in the case of continuing or repeat tax delinquency or other clear issues of jeopardy to tax
revenue, TTB had intended that the audits cycle through all of the large taxpayers over a 5-year period.
Therefore, once a large taxpayer is audited, it will generally not be audited again until all of the other
large taxpayers have been audited and their actual level of risk determined by completed audits.

 According to information from the Director of TAD and Chief of RMS, in fiscal year 2006 1 of the 5
11

was being audited, 1 was planned for audit, and the remaining 3 were not planned for audit.

                       REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest      Page 14
                       Taxpayers (OIG-06-043)
taxpayers with planned audits – will vary between [REDACTED -
FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)].

Late-filed tax returns Points are assigned for late-filed tax returns
using a combination of [REDACTED - FOIA EXEMPTION 2, 5
U.S.C. §552 (b) (2)] The fiscal year 2005 risk model contained
notations indicating that 43 large taxpayers had at least one late-
filed return. We found that 9 of the 43, or 21 percent, had
incorrect scores assigned due to the use of incorrect weighting
factors. For example, in one case, the change in the taxpayer’s
overall risk score would have resulted in the taxpayer’s risk ranking
dropping [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]

History of noncompliance Points are assigned to a large taxpayer
for noncompliance using a combination of [REDACTED - FOIA
EXEMPTION 2, 5 U.S.C. §552 (b) (2)] In the fiscal year 2005 risk
model, 26 large taxpayers were assigned points for noncompliance.
A review of the noncompliance category revealed that the points
for noncompliance assigned to 2 of these taxpayers had been
calculated incorrectly based on the risk indicators and the amount
of taxpayer revenue. One of these 2 taxpayers had points
erroneously assigned for noncompliance, while the matching
notation showed that the points should actually have been
assigned for a [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552
(b) (2)] decline in tax payments.

Other risk indicators Points are assigned to a large taxpayer for
other risk factors using a combination of both the size of the
taxpayer and the presence of other risk indicators, such as a
taxpayer’s having over [REDACTED - FOIA EXEMPTION 2, 5
U.S.C. §552 (b) (2)] of the business in exports or in-bond
transfers, over [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552
(b) (2)] in claims during the previous fiscal year, or a precipitous
decline in tax payments. Our analysis of the fiscal year 2005 risk
model with respect to taxpayers with precipitous declines in tax
payments found that 87 of the largest 400 taxpayers had declines
in tax payments greater than [REDACTED - FOIA EXEMPTION 2, 5




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 15
Taxpayers (OIG-06-043)
                       U.S.C. §552 (b) (2)].12 RMS did not identify or assign points to 46
                       (53 percent) of these 87 taxpayers in the risk model.

                       Small taxpayer observation We also reviewed the listing for small
                       taxpayers —those with an annual tax liability of [REDACTED - FOIA
                       EXEMPTION 2, 5 U.S.C. §552 (b) (2)] – in the fiscal year 2005 risk
                       model. RMS had not scored or rated this group and, in the absence
                       of any risk ratings, the only analysis we could perform was of
                       declines in tax payments between fiscal year 2002 and fiscal year
                       2003. We found 80 taxpayers with declines in tax payments of 10
                       percent or more. Of the 80, we found that 27 (34 percent) had
                       experienced a 90 percent or greater decline. One taxpayer’s
                       payment was recorded as having dropped from $4.5 million to
                       $200, moving the taxpayer from the large taxpayer category to the
                       small taxpayer category, where it was not apt to be closely
                       scrutinized by RMS. During our visit to NRC, we found that this
                       taxpayer’s account tax revenue data had been incorrectly recorded
                       because of a problem in processing an EFT.13 This problem resulted
                       in errors in both the taxpayer’s categorization (as large or small)
                       and the taxpayer’s risk rating. Without an analysis of precipitous
                       declines in tax revenue, RMS may not identify such taxpayers as
                       potential risks. RMS should review the small taxpayer listing for
                       taxpayers with precipitous declines in tax payments.

                       Disproportionate Weight of Revenue in Scoring and Ranking

                       In RMS’s risk assessment of the largest taxpayers, revenue
                       accounts for [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b)
                       (2)] of the total points awarded in the model. [REDACTED - FOIA
                       EXEMPTION 2, 5 U.S.C. §552 (b) (2)]


12
   The risk assessment targeting document did not define a precipitous decline in tax payments. For
purposes of this report, we considered a decline in tax payments greater than [REDACTED - FOIA
EXEMPTION 2, 5 U.S.C. §552 (b) (2)] to represent a precipitous decline. This is in line with the “Other
risk indicators”, which use [REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)] as the defining
factor. See appendix 2.

13
   An EFT is a nonpaper, computer-to-computer transfer of funds from the taxpayer's financial
institution account to the Treasury's account at the Federal Reserve Bank of New York. The taxpayer's
financial institution, either directly or through a correspondent bank, must use the EFT system known as
Fedwire. In addition, taxpayers must send a separate Fedwire message for each TTB tax return that is
required to be filed.

                       REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest    Page 16
                       Taxpayers (OIG-06-043)
TAD and RMS have agreed to review the weighting assigned the
risk factors. As risk factors are evaluated based on completed
audits, TTB should consider adjusting risk factors, other than
revenue, which may also represent a substantial threat to tax
collections.

Management Response

The Administrator acknowledged that some errors were made in
the manual preparation of the risk model. To improve the risk
model accuracy, TTB is adding formulas to the spreadsheet used to
calculate the risk model scores as well as a second review of the
risk model before sending it to TAD.

TTB stated that it [REDACTED - FOIA EXEMPTION 2, 5 U.S.C.
§552 (b) (2)] would be reevaluating the future percentages to be
used as the most reliable assessment of risk, given the realities of
industry practices.

TTB indicated that it had evaluated all taxpayers that moved from
the large to small [REDACTED - FOIA EXEMPTION 2, 5 U.S.C.
§552 (b) (2)] category, but did not document the effort in the
model. Further, the taxpayer identified as having dropped from
$4.5 million to $200 in tax payments had been identified as having
gone out of business.

The initial risk model initially assigned a majority of risk based upon
excise tax revenue. For fiscal year 2007, TTB is not weighing
revenue as high and is focusing more heavily on potential liability.

OIG Comment

The steps that TTB indicated it had taken or are considering to
improve the validity, accuracy, and usefulness of the data should
enhance the risk model’s value. [REDACTED - FOIA EXEMPTION 2,
5 U.S.C. §552 (b) (2)]


REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 17
Taxpayers (OIG-06-043)
                         TTB is taking the correct approach in trying to determine the
                         appropriate percentage to use for precipitous declines.

                         At the time of the audit, the evidence provided to us concerning
                         the taxpayer whose tax payments dropped from $4.5 million to
                         $200, does not support the statement that the registry had gone
                         out of business. Production reports for that registry showed
                         activity through August 2005.

Finding 3                FET System Controls Need Strengthening at the Taxpayer
                         Level

                         While attempting to verify risk model source data, we found that
                         FET individual taxpayer account balances may be inaccurate
                         because of a control weakness in EFT processing at NRC. The
                         weakness allows EFT payments to be transferred among taxpayer
                         accounts without adequate explanation. For risk assessment
                         purposes, this may result in taxpayers with incorrect account
                         balances not being identified as high risk.

                         NRC receives and processes tax returns, payments, claims and
                         operational documents submitted by the regulated industries.
                         Taxpayers who are liable during any given year for $5 million or
                         more in excise taxes imposed on distilled spirits, wines, beer or on
                         tobacco products, cigarette papers and tubes are required to pay
                         such taxes during the following year by EFT.14 In the fiscal year
                         2005 risk model, 41 percent of the large taxpayers met the $5
                         million threshold and were required to file by EFT the following
                         year.

                         At NRC, we attempted to confirm the account balance belonging to
                         a taxpayer whose tax payments had dropped from $4.5 million in
                         fiscal year 2002 to $200 in fiscal year 2003. Since the fiscal year
                         2003 $200 balance was used in the 2005 risk model, it resulted in
                         this taxpayer being classified as a small taxpayer. When our initial
                         attempts to reconcile the taxpayer’s account balance were
                         unsuccessful, NRC enlisted the help of a tax coordinator to assist
                         with a manual reconciliation.


14
     Treasury Procedure 91-1 entitled TTB Procedure for Payment of Tax by Electronic Fund Transfer.

                         REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 18
                         Taxpayers (OIG-06-043)
This particular taxpayer was listed on the risk model with 4
different registry numbers because it had operations in 4 locations
in 3 states. In mid-February 2002, NRC received a $5.2 million EFT
payment for the exact amount due for one registry and correctly
posted it to the taxpayer’s registry account in the FET system.
That same month, NRC made 6 adjusting transactions transferring
a total of $4.5 million to a second registry of that taxpayer. NRC
was unable to explain the reason for the transfers.

In December 2002, NRC transferred, again without explanation, 5
of those payments ($4.2 million) back to the original registry
account. Based upon the information provided during our site visit,
1 payment of $296,000 was not transferred back to the original
account. At the time of our inquiry, the balance on the second
registry was about $303,000. Because of these transfers, the NRC
data for the second taxpayer registry could not be reconciled to the
amount ($200) in the 2005 RMS risk model.

When this situation was brought to the attention of the Deputy
Director of Tax Services at NRC, she explained that there was a
known FET systems problem regarding EFT payments. She
described what occurs when a return is reexamined because it was
posted to the wrong taxpayer account. If the payment is an EFT
payment, the FET system does not post a reversal properly but
instead updates the original account.

According to the Deputy Director of Tax Services at NRC, NRC has
a current contract to address the problem. The contract for the
planning and requirements was awarded on May 1, 2006, with an
expected completion date of September 30, 2006. The entire
project is expected to be completed within a year and the Deputy
Director believes the completed project will correct the EFT
problem and result in NRC having an audit trail that is easily
followed.

Management Response

The Administrator stated that the EFT process minimizes risk of
fraud, waste, and abuse in the excise tax collection process. TTB
confirmed that tax receipts were recorded timely, accurately, and


REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 19
Taxpayers (OIG-06-043)
completely by conducting a comprehensive review of internal
controls over excise tax collections during fiscal year 2006.

The Administrator noted that the FET issues relate to taxpayers
with multiple locations. He described the situation relating to the
case depicted in the report as one in which the taxpayer made an
EFT payment to the wrong registry. When TTB reconciled the
account, it made adjusting entries to correctly reflect the payment.

As the draft report disclosed, a need exists to show an audit trail
of all adjusting entries, especially for taxpayers with multiple
locations. The pending changes to the FET system will create this
audit trail and ensure that monies processed from an EFT are easily
tracked. In the interim, TTB established mitigating internal controls
to serve as an audit trail and as a valid check and balance.

OIG Comment

Since we did not review the internal controls relating to the receipt,
processing and posting of payments, we make no judgment as to
TTB’s assertions about the adequacy of the related internal
controls.

As described by TTB in its response, the circumstances involving
the payment, reconciliation and adjustment of tax payments do not
coincide with the information provided to us and cited in the report.
NRC provided us with a copy of the excise tax return for one
registry showing an amount due of $5.2 million. After this EFT
payment was made, $4.5 of the $5.2 million tax payment was
transferred to a second registry. Subsequently, $4.2 million was
transferred back to the original account. No explanations were
provided for these adjusting entries.

Most importantly, TTB acknowledged the problem with EFT
payments being posted in the FET system and had taken action to
enhance the FET system. According to the Administrator, the fix
will now be completed in the next 90 days.




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 20
Taxpayers (OIG-06-043)
Conclusions
              Utilizing the full risk model provides the best opportunity to target
              the highest-risk taxpayers (large and small) for audit. The impact of
              TAD’s decision to audit the largest 400 taxpayers in lieu of
              considering all taxpayers in the RMS risk model has likely been
              minimal. However, a 5-year audit cycle may not be often enough
              for certain high-risk large taxpayers, and high-risk small taxpayers
              may not be audited for more than 5 years. TAD’s Strategic Plan –
              Proposal for Fiscal Years 2007 – 2009 addresses this concern by
              suggesting that taxpayers be selected in accordance with RMS risk
              ratings.

              The problems with the risk model we identified raise questions
              about the validity of its rankings. To ensure the validity of the risk
              model, we believe that RMS must verify that the risk model
              contains complete and accurate information.

              TTB needs to expeditiously fix the FET controls over EFT payments
              at NRC. In addition to affecting the categorization of taxpayers as
              either large or small, which directly affects the targeting of
              taxpayers for audit and for risk assessment purposes, the EFT
              payment control weakness can affect TTB’s ability to adequately
              ensure that all taxpayers’ accounts are accurate. TTB believes the
              control problems will be corrected by ongoing contract work.

Recommendations
              We recommend that the Administrator of TTB do the following:

              1. When creating future audit plans, require that TAD consider
                 selecting taxpayers in accordance with the ratings of the RMS
                 risk model.

              2. Require NRC to forward to RMS the selection criteria used to
                 generate the taxpayer revenue report and the NRC query used.

              3. Ensure that RMS reviews risk model weighting factors and
                 calculations before finalizing the model for use by TAD.


              REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 21
              Taxpayers (OIG-06-043)
4. Require that RMS review all taxpayers in the risk model to
   ensure that they are accurately categorized as large or small,
   and research any anomalies identified.

5. Improve FET controls over EFT payments to ensure accurate
   and reliable taxpayer account histories. The entire account
   history needs to include adjustments and correcting entries. In
   this regard, the FET system corrections currently underway
   should provide for an adequate audit trail of all changes to
   taxpayer accounts.

   Management Response

   The Administrator concurred with the first four
   recommendations and indicated that TTB has taken actions to
   implement each one. For the fifth recommendation, the
   Administrator agreed that the system enhancement that we
   proposed will further enhance the internal controls over the FET
   system. The Bureau had recognized the system vulnerability and
   intends to complete a system enhancement within the next 90
   days, but no later than November.

   OIG Comment

   We believe that the actions TTB states in its response, if
   implemented as described, address the intent of our
   recommendations.




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 22
Taxpayers (OIG-06-043)
                                    *****



We would like to extend our appreciation to TTB for its cooperation
and courtesies extended to our audit staff during the audit. If you
have any questions, please contact me at (617) 223-8640 or
Stephen Syriala, Audit Manager, at (617) 223-8643. Major
contributors are listed in appendix 4.



/s/
Donald P. Benson
Director




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 23
Taxpayers (OIG-06-043)
Appendix 1
Objectives, Scope, and Methodology




We conducted this audit to determine how the Tax Audit Division
(TAD) targeted industry members for audit and to assess the
results achieved. We evaluated the Risk Management Staff’s (RMS)
risk assessment model by examining the weighting of the risk
factors considered by TAD in selecting audit targets and
determining if they were reasonable, and by assessing the reliability
of the data. During the course of this audit, we also reviewed the
National Revenue Center’s (NRC) system controls surrounding
postings and adjustments to individual taxpayer accounts involving
the use of Electronic Fund Transfer (EFT) remittances.

We reviewed (1) applicable laws and regulations related to TTB’s
duties and responsibilities identified in the Homeland Security Act
of 2002, Pub. L. No. 107-296, Section 1111(d); (2) TTB’s
strategic plan and its annual report and Performance and
Accountability Reports; (3) legislation and congressional interest;
and (4) TAD’s risk assessment targeting documents for fiscal years
2005 and 2004.

We identified (1) TTB’s divisions, staff, and systems currently
involved in processing tax returns, payments, claims, and
operational documents submitted by the regulated industries;
(2) the risk factors that are used to determine the relative risk that
a given taxpayer may not be willing or able to voluntarily comply
and pay all taxes due; and (3) the selection process used to
determine which taxpayers will be selected for audit. We
conducted interviews with TTB officials at TTB headquarters in
Washington, D.C., and with NRC officials in Cincinnati, OH. We
performed our fieldwork in Washington, D.C., and Cincinnati, OH.

From the RMS risk assessment model, we selected a random
sample of 10 percent of taxpayers for each commodity type
represented in the large taxpayer model [REDACTED - FOIA
EXEMPTION 2, 5 U.S.C. §552 (b) (2)]. We also reviewed a limited
number of small taxpayers with potential anomalies. We reviewed
the source revenue data and the risk model data associated with
these taxpayers in an effort to assess the status, completeness,
and reliability of the data on the model. We reviewed TAD’s audit
selection process and the extent to which the risk assessment
model was used as a tool for audit selections.


REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 24
Taxpayers (OIG-06-043)
Appendix 1
Objectives, Scope, and Methodology




We conducted our audit from July 2005 to July 2006 in
accordance with generally accepted government auditing
standards.




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 25
Taxpayers (OIG-06-043)
                 Appendix 2
                 Risk Model Scoring Guidelines for Large Taxpayers




[REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]




                 REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 26
                 Taxpayers (OIG-06-043)
Appendix 3
Management Response

[REDACTED – FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 27
Taxpayers (OIG-06-043)
Appendix 3
Management Response

[REDACTED – FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 28
Taxpayers (OIG-06-043)
Appendix 3
Management Response

[REDACTED – FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 29
Taxpayers (OIG-06-043)
Appendix 3
Management Response

[REDACTED – FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 30
Taxpayers (OIG-06-043)
Appendix 3
Management Response

[REDACTED – FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 31
Taxpayers (OIG-06-043)
Appendix 3
Management Response

[REDACTED – FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 32
Taxpayers (OIG-06-043)
Appendix 3
Management Response

[REDACTED – FOIA EXEMPTION 2, 5 U.S.C. §552 (b) (2)]




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 33
Taxpayers (OIG-06-043)
Appendix 4
Major Contributors to This Report




Stephen Syriala, Audit Manager
Maryann Costello, Auditor-In-Charge
Kenneth O’Loughlin, Auditor
Mark Ossinger, Referencer
Esther Tepper, Communications Analyst




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 34
Taxpayers (OIG-06-043)
Appendix 5
Report Distribution




Department of the Treasury

       Office of Strategic Planning and Performance Management
       Office of Accounting and Internal Control

Alcohol Tobacco and Tax and Trade Bureau

       Administrator
       Chief of Staff
       Director, Tax Audit Division
       Chief, Risk Management Staff
       Deputy Director of Tax Services, National Revenue Center


Office of Management and Budget

       OIG Budget Examiner




REVENUE COLLECTION: TTB’s Revenue Protection Audits Target the Largest   Page 35
Taxpayers (OIG-06-043)
